No. 20-752

In The

Supreme Court of the United States
♦
GAVIN B. DAVIS
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

♦
On Petition for a Writ of Certiorari to the
Court of Appeal, California,
Fourth Appellate District, Division One

♦
PETITION FOR REHEARING

♦
GAVIN B. DAVIS, Pro Per
Petitioner & Federalist
4007 McCullough Ave., Suite 166
San Antonio, Texas 78212
(858) 876-4346
gavinprivate96@gmail.com

FILED
MAR 0 5 2021
OFFICE OF THE CLERK
SUPREME COUFty i q

1

♦
Pursuant to Rule 44 of this Court,
Petitioner, Mr. Gavin B. Davis (“Petitioner”),
hereby respectfully petitions for rehearing of this
case for good cause, namely that substantial
grounds not previously presented exist regarding
the case: a Constitutional case regarding the
egregious and unlawful misuse and de facto
“weaponization” of monetary bail and pre-trial
custody in violation of the 4th and 8th
Amendments.
Such matter is of contemporary national
and state importance (28 U.S.C. §§ 1657, 2101(e));
and, whereby also in light of various prominent
and increasingly frequent legislative state actions,
including Illinois passage of HB3653, becoming the
first state to formally abolish monetary bail on
February 22, 2021.
In this regard, as the Court has not provided
a super-precedential ruling on monetary bail; and
whereby, there is great potential for Circuit Court
split absent this Court’s Opinion, as the Third
Circuit has recently published a 52-page Opinion
centered around the Constitutionality of Bail and
on Constitutional protections related to crimes
(Brittan Holland; Lexington National Insurance
Corporation, v. Kelly Rosen, Mary Colalillo,
Christopher S. Porrino; 3rd Cir., No. 17- 3104,
(2018)), which found no constitutional requirement
for monetary bail, rendering such as “a product of
economic opportunity” and cited instances in
which the use of money to secure a person’s release
has been criticized as “discriminatory, arbitrary
and ill-suited to ensuring a defendant’s
appearance in court,” and also stating, “monetary

2
bail often deprived presumptively innocent
defendants of their pretrial liberty, a result that
surely cannot be fundamental to preserving
ordered liberty”); therefore, such also qualifies as
a modern-day “first impression” question before
the Court.1
Invariably, this Court will be called upon to
be the land’s final arbiter and resolve this issue, a
growing Constitutional issue across the nation—
this case, Davis v. California, is a quintessential
lens through which to view the various issues.
Petitioner in so moving in this Rehearing Petition,
graciously and respectfully requests that the Court
“collect cases,” finding historic precedent for the
Court to spend lengthy periods of time, even years,
prior to rehearing; whereas such would be
jurisprudent in the granting of this Petition for
Rehearing.
(see e.g. in Halliburton Oil Well
Cementing Co. v. Walker, 327 U.S. 812, the Court
granted rehearing in February 1946, ibid., and
heard reargument 240 days later in October 1946,
see 329 U.S. 1 (1946). See also, e.g., MacGregor v.
Westinghouse Elec. & Mfg. Co., 329 U.S. 402 (1947)
(reargument 248 days after rehearing granted); in
a few earlier cases, several years elapsed between
the grant of rehearing and reargument. See Home
1 The matter is not “well-settled”, and is ripe for superprecedential plenary review by the Court (see e.g.
denial precedent in Ambler v. Whipple, 87 U.S. (20
Wall.) 546, 558 (1874), reh’g denied, 90 U.S. (23 Wall.)
278 (1874); whereby, one threshold for potential review
is: is the issue “well-settled”. In this case, monetary
bail, it is not; it is of great contemporary controversy,
with political forces increasingly moving toward its
abolishment for good cause, including but not limited to
the notion that such is patently unconstitutional.

3

Ins. Co. v. New York, 122 U.S. 636 (1887) (granting
rehearing February 1, 1887), and 134 U.S. 594
(1890) (reargument March 18-19, 1890); Selma,
Rome & Dalton R.R. v. United States, 122 U.S. 636
(1887) (granting rehearing March 28, 1887), and
139 U.S. 560 (1891) (reargument March 25-26,
1891))
This case involves, generally,
Petitioner, a Cornell University
(i)
graduate with substantial work experience
working “shoulder-to-shoulder” with leading
global attorneys over a twenty (20) year
professional career; having no criminal history,
having disputed criminal charges brought against
him by
(ii) Mr. John Gregory Unruh, a reputed
member of organized crime (Las Vegas Mafia; see
also e.g. United States of America v. J. Gregory
Unruh, USDC DA, 2:95-mj-05124-MS-l, (1995)
and all underlying or related criminal records);
made
twenty-seven
non­
(27)
(a)
duplicative court appearances at-liberty in defense
of such disputed charges;
while having the prosecution, the
(b)
Office of the San Diego District Attorney (“SDDA”)
repeatedly attempt to either or both of remand the
Petitioner to custody and pre-trial detention, or to
increase the terms and conditions of monetary bail
until such point as Petitioner was no longer able to
afford bail; and,
held in such protracted jeopardy on
(c)
the highest bail ever in California for the ‘wobbler’
charge in question: property damage to his own
Recorded Homestead while he was the sole
occupant.

I

4

Petitioner remained in pre-trial detention
for approximately (6) months awaiting bail review
as calendared on three (3) occasions with no
hearing, despite appearing at court on such
hearing dates, (as well as nothing filed in writ) in
violation of his 4th and 8th Amendment rights.
Appellate attorney, Mr. John O. Lanahan
(CSBN #133091, past head of the San Diego
Criminal Defense Attorneys Association, Criminal
Defense Attorney of the Year (2012, 2016),
University of Chicago, J.D., Phi Beta Kappa) has
found in no uncertain terms that the Respondent
violated the Petitioner’s Constitutional rights.
“The coercion in this case arose not from
direct or indirect threats, but from being denied his
liberty for an extended period of time on excessive
bail and attempting to regain that liberty via a bail
hearing, calendared three times but then taken off
calendar, thereby supporting his claim that the
only way he could be released from jail was to plea
guilty. There is more than a reasonable probability
had Petitioner been presented with the alternative
of a bail review to regain his liberty, he would have
chosen that as the means to be released from jail,
in order to be at liberty and still able to contest his
case.” (California v. Davis, 4th Dist., Div. 1,
D074186, Petition for Rehearing, pg. 4; see also
D074186 full briefing)

♦
CONCLUSION
Petitioner, good cause shown, respectfully
requests that the court; a priori, GRANT this
Petition for Rehearing on the matter of monetary

• *

5
bail and its Constitutionality; thereafter, to collect
cases on such matter, with Davis v. California,
being one of such cases; and, finally, to review de
novo the Petition for a Writ of Certiorari (20-752)
and upon rehearing GRANT certiorari.
Petitioner requests that the Court grant any
other relief that it deems appropriate.
Respectfully submitted, on this day, March
5, 2021.

^GAVINfB. DAVIS, Pro Per
^ Petitioner & Federalist

DECLARATIONS MADE UNDER PENALTY
OF PERJURY
All matters herein by the Petitioner are so
declared under penalty of perjury as true and
correct to the best of my knowledge pursuant to 28
U.S.C-5 1746yfexeehted on March 5, 2021.

OAVljyB. DAVIS, Pro Per
Petitioner & Federalist
Johann Reyes
f
k

STATE OF

My Commission Expires
•» 11/30/2024
'DNo 132801976

county ofVV^Xci r

SW08N TO sad Subscribed before Me byfin\i\A
M flat

'oVKdgvof jXAnrrWJ

"B laW? txx/\ ^
.

